No. 20-994

In the Supreme Court of the United States
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL.,
PETITIONERS

v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA, AND SALT LAKE
COUNTY, UTAH, RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by U.S. Supreme Court Rule 33.1(h), I, counsel for petitioners and a member of the Bar of this Court, certify that the Supplemental Brief for Petitioners contains
2,965 words, excluding the parts of the document that are exempted by U.S. Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 11, 2021.
/s/ Robert J. Giuffra, Jr.
Robert J. Giuffra, Jr.
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
giuffrar@sullcrom.com

